APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 29, 2021) ......................... 1a
District Court of Rogers County,
State of Oklahoma, Order on Remand with
Findings of Fact and Conclusions of Law
(November 12, 2020) ............................................... 12a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 14, 2020) .................................................... 40a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 29, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DAKOTA JAMES ALLEYN SHRIVER,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F- 2017-1279
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
OPINION
LUMPKIN, JUDGE:1

1 As stated in my separate writing in Bosse v. State, 2021 OK
CR 3, ___ P.3d ___, (Lumpkin, J., concurring in result), I am bound
by my oath and adherence to the Federal-State relationship
under the U.S. Constitution to apply the edict of the majority
opinion in McGirt v. Oklahoma, 140 S.Ct. 2452 (2020). However,
I continue to share the position of Chief Justice Roberts’ dissent
in McGirt, that at the time of Oklahoma Statehood in 1907, all

App.2a
Appellant Dakota James Alleyn Shriver was tried
by jury and convicted of Second Degree Murder (21
O.S.2011 § 701.8) (Count I); Accessory After the Fact
(21 O.S.2011, § 173) (Counts II and III); and misdemeanor Obstructing an Officer (21 O.S.2011, § 540)
(Count IV), in the District Court of Rogers County,
Case No. CF-2015-395. In accordance with the jury’s
recommendation the Honorable Dwayne Steidley, District Judge, sentenced Appellant to twenty-five (25)
years imprisonment in Count I, two (2) years imprisonment in Count II, one year imprisonment in Count
III, and one year in the county jail in Count IV. All
sentences were ordered to be served concurrently.2
Appellant appeals from this conviction and sentence.
In Proposition I, Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that he is a citizen of the Cherokee Nation and the
crime occurred within the boundaries of the Cherokee
Nation.
Pursuant to McGirt v. Oklahoma, 140 S.Ct. 2452
(2020) Appellant’s claim raises two separate questions:
(a) his Indian status and (b) whether the crime
occurred in Indian Country. These issues require factfinding. We therefore remanded this case to the
District Court of Rogers County for an evidentiary
hearing.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
parties accepted the fact that Indian reservations in the state
had been disestablished and no longer existed.
2 Appellant must serve 85% of his sentence in Count I before
becoming eligible for parole consideration.

App.3a
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to his legal status as an
Indian and as to the location of the crime as Indian
Country, the burden shifts to the State to prove it
has subject matter jurisdiction. The District Court was
ordered to determine whether Appellant has some
Indian blood and is recognized as an Indian by a
tribe or the federal government.3 The District Court
was also directed to determine whether the crime
occurred in Indian Country. The District Court was
directed to follow the analysis set out in McGirt to
determine: (1) whether Congress established a reservation for the Cherokee Nation; and (2) if so, whether
Congress specifically erased those boundaries and
disestablished the reservation. In so doing, the District
Court was directed to consider any evidence the parties
provided, including but not limited to treaties, statutes,
maps, and/or testimony.
We also directed the District Court that in the
event the parties agreed as to what the evidence would
show with regard to the questions presented, the
parties may enter into a written stipulation setting
forth those facts upon which they agree and which
answer the questions presented and provide the
stipulation to the District Court. The District Court
was also ordered to file written findings of fact and
conclusions of law with this Court.
3 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th
Cir. 2001).

App.4a
An evidentiary hearing was timely held before
the Honorable Kassie McCoy, Associate District Judge,
and an Order on Remand from that hearing was
timely filed with this Court. The order states that
appearances were made by attorneys from the Rogers
County District Attorney’s, the office of the Attorney
General for the State of Oklahoma, defense counsel,
and the Attorney General for the Cherokee Nation.
In its order, the District Court stated that based
upon stipulations and evidence presented by the
parties, briefs and argument of counsel, Appellant was
shown to be a citizen of the Cherokee Nation, Congress
had established a reservation for the Cherokee Nation,
and Congress had not disestablished the reservation.
In its order, the District Court did not address the
evidentiary basis for its finding that Appellant is
Indian. However, filed with this Court is the original
record of the proceedings in the District Court upon
remand. Contained therein are the following stipulations agreed upon by the parties:
The defendant/appellant, Dakota Shriver, has
17/128 Cherokee blood and was a member of
the Cherokee Nation at the time of the crimes.
Verification of Mr. Shriver’s tribal membership from the Cherokee Nation is appended
to this Stipulation as Exhibit 1. The Cherokee
Nation is an Indian Tribal Entity recognized by the federal government.
[...]
The crimes alleged in this case occurred in
Rogers County, Oklahoma at Gordon Road
(E/W 530) 2/10 Mile East of Highway 266,
Verdigris, Oklahoma. This address is within

App.5a
the geographic area set out in the Treaty
with the Cherokee, December 29, 1835, 7 Stat.
478, as modified under the Treaty of July 19,
1866, 14 Stat. 799, and as modified under the
1891 agreement ratified by the Act of March
3, 1893, 27 Stat. 612. Verification that the
above address is located within the aforementioned boundaries from the Cherokee Nation
Real Estate Services Division is appended
to this Stipulation as Exhibit 2.
Based upon this evidence, the District Court found
Appellant is Indian and the crimes in this case
occurred in Indian Country.
Regarding the establishment/disestablishment of
the reservation, the District Court applied the analysis
set forth in McGirt in its consideration of numerous
treaties, federal statutes, federal case law and other
official documents. This evidence was the basis for the
District Court’s finding that Congress had established
a reservation for the Cherokee and only Congress
could disestablish that Reservation. The court stated
on that point, “regardless of where the burden of
production is placed, no evidence was presented to
this Court to establish Congress explicitly erased or
disestablished the boundaries of the Cherokee Nation
or that the State of Oklahoma has jurisdiction in this
matter. As a result, the Court finds Dakota Shriver
is an Indian and that the crime occurred in Indian
Country.”
Both Appellant and the State were given the
opportunity to file response briefs addressing issues
from the evidentiary hearing. In its response brief,
Appellant argues this Court should affirm the findings
of the District Court, applying an abuse of discretion

App.6a
standard of review. Appellant asserts the factual findings and legal conclusions are supported by the evidence
and the law. Appellant notes that the State did not
present any evidence at the evidentiary hearing and
made no argument regarding any of the questions
upon which this Court remanded for an evidentiary
hearing.
In its response brief, the State acknowledges the
District Court’s findings as to Appellant’s Indian status,
the location of the crime as occurring in Indian
Country, the establishment of a reservation for the
Cherokee Nation, and that no evidence had been
presented establishing that Congress had erased or
disestablished that reservation. The State contends
that should this Court find Appellant is entitled to
relief based on the District Court’s findings, this Court
should stay any order reversing the conviction for thirty
(30) days so that the appropriate authorities can review
the case and determine whether it is appropriate to
file charges and take custody of Appellant. Cf. 22
O.S. 2011, § 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts, and briefs of the
parties, we find that under the law and the evidence
relief is warranted. Under the record before us, we
find the District Court did not abuse its discretion and
its findings are supported by the evidence presented
at the evidentiary hearing. See State v. Delso, 2013
OK CR 5, ¶ 5, 298 P.3d 1192, 1194. We find Appellant has met his burden of establishing his status as
Indian, having 17/128 Cherokee blood, that he was a
member of the Cherokee Nation at the time of the

App.7a
crimes, and the crimes in this case occurred within
the Cherokee Nation Reservation.
We also find the District Court appropriately
applied McGirt to determine that Congress did establish
a reservation for the Cherokee Nation and that no
evidence was presented showing that Congress explicitly erased or disestablished the boundaries of the
Cherokee Reservation or that the State of Oklahoma
had jurisdiction in this matter. See Hogner v. State,
2021 OK CR 4, ¶ 18, ___ P.3d. ___. We therefore
find that pursuant to McGirt, the State of Oklahoma
did not have jurisdiction to prosecute Appellant in
this matter.4 The Judgments and Sentences in this
case are hereby reversed and the case remanded to
the District Court of Rogers County with instructions
to dismiss the case.5

4 While Art. 7 of the Oklahoma Constitution vests the district
courts of Oklahoma with “unlimited original jurisdiction of all
justiciable matters,” the federal government has pre-empted the
field as it relates to major crimes committed by or against
Indians in Indian country.
5 This resolution renders the other six (6) propositions of error
raised in Appellant’s brief moot.

App.8a
DECISION
The JUDGMENTS and SENTENCES are
REVERSED AND REMANDED with instructions
to Dismiss. The MANDATE is not to be issued until
twenty (20) days from the delivery and filing of this
decision.6
AN APPEAL FROM THE DISTRICT COURT OF
ROGERS COUNTY THE HONORABLE KASSIE
McCOY, ASSOCIATE DISTRICT JUDGE
APPEARANCES IN DISTRICT COURT
Kristi Christopher
Okla. Indigent Defense
P.O. Box 926
Norman, OK 73070
Counsel for Defendant
Matt Ballard
District Attorney
200 S. Lynn Riggs, 2nd Floor
Claremore, OK 74107
Mike Hunter
Attorney General of Oklahoma
Randall Young
Julie Pittman
Asst. Attorneys General
313 N.E. 21st St.
Oklahoma City, OK 73105
Counsel for the State

6 By withholding the issuance of the mandate for 20 days, the
State’s request for time to determine further prosecution is
rendered moot.

App.9a
Sara Hill
Chrissi Nimmo
Cherokee Nation Office of the Attorney General
P.O. Box 1533
Tahlequah, OK 74465
APPEARANCES ON APPEAL
Kristi Christopher
Okla. Indigent Defense
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Julie Pittman
Asst. Attorney General
313 N.E. 21st St.
Oklahoma City, OK 73105
Counsel for the State
Opinion by: Lumpkin, J.
Kuehn, P.J.: Concur in Results
Rowland, V.P.J.: Concur
Lewis, J.: Concur in Results
Hudson, J.: Specially Concur

App.10a
LEWIS, JUDGE,
CONCURRING IN RESULTS:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ P.3d and Hogner v.
State, 2021 OK CR 4, ___ P.3d ___, I concur in results
in the decision to dismiss this case for the lack of state
jurisdiction.

App.11a
HUDSON, J., SPECIALLY CONCURS:
Today’s decision applies McGirt v. Oklahoma, 140
S.Ct. 2452 (2020) to the facts of this case and dismisses
convictions for second degree murder, accessory after
the fact and misdemeanor obstructing an officer from
Rogers County. I concur in the results of the majority’s
opinion based on the stipulations below concerning
the Indian status of Appellant and the location of these
crimes within the historic boundaries of the Cherokee
Reservation. Under McGirt, the State cannot prosecute
Appellant because of his Indian status and the occurrence of these crimes within Indian Country as defined
by federal law. I therefore as a matter of stare decisis
fully concur in today’s decision.
Finally, I maintain my previously expressed views
on the significance of McGirt, its far-reaching impact
on the criminal justice system in Oklahoma and the
need for a practical solution by Congress. See Bosse
v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J.,
Concur in Results); Hogner v. State, 2021 OK CR 4, ___
P.3d ___ (Hudson, J., Specially Concurs); and Krafft
v. State, No. F-2018-340 (Okl. Cr., Feb. 25, 2021)
(Hudson, J., Specially Concurs) (unpublished).

App.12a
DISTRICT COURT OF ROGERS COUNTY,
STATE OF OKLAHOMA, ORDER ON REMAND
WITH FINDINGS OF FACT AND
CONCLUSIONS OF LAW
(NOVEMBER 12, 2020)
IN THE DISTRICT COURT IN AND FOR
ROGERS COUNTY, STATE OF OKLAHOMA
________________________
THE STATE OF OKLAHOMA,
Plaintiff,
v.
DAKOTA SHRIVER,
Defendant.
________________________
Rogers County District Court Case No. CF-2015-395
Court of Criminal Appeals Case No. F-2017-1279
Before: Kassie N. MCCOY, District Judge.
ORDER ON REMAND
This matter came on for hearing before the Court
on September 28, 2020, in accordance with the remand
order of the Oklahoma Court of Criminal Appeals
issued on August 14, 2020. The State appeared by and
through District Attorney Matthew Ballard. Defendant
appeared by and through attorney Kristi Christopher.
Cherokee Nation, Amicus, appeared by and through
Attorney General Sara Hill. Based upon the stipu-

App.13a
lations and evidence presented by the parties, review
of the pleadings, and the briefs and argument of
counsel, the Court makes the following findings of fact
and conclusions of law:
FINDINGS OF FACT
1. Cherokee Nation is a federally recognized
Indian tribe. 84 C.F.R. § 1200 (2019).
2. The current boundaries of Cherokee Nation
encompass lands in a fourteen-county area within the
borders of the State of Oklahoma (Oklahoma), including all of Adair, Cherokee, Craig, Nowata, Sequoyah,
and Washington Counties, and portions of Delaware,
Mayes, McIntosh, Muskogee, Ottawa, Rogers, Tulsa,
and Wagoner Counties.
3. Cherokee Nation’s government, headquartered
in Tahlequah, consists of executive, legislative, and
judicial branches, including active district and appellate
courts.
4. Cherokee Nation provides law enforcement
through its Marshal Service, and maintains cross-deputation agreements with state, county, and city law
enforcement agencies for protection of citizens and
non-citizens.
5. Approximately 139,000 Cherokee citizens reside
within the boundaries of Cherokee Nation.
6. Cherokee Nation provides services to communities within its boundaries, including, among others,
health and medical centers, veteran’s center, employment, housing, bus transit, waterlines, sewers, water
treatment, bridge and road construction, food distribution,
child support services, child welfare, youth shelter,

App.14a
victim services, donations to public schools and fire
departments, and charitable contributions. “Rising
Together, 2018 Annual Report to the Cherokee People”
(FY 2018 Rep.) and “Popular Annual Financial Report
for FY 2019, Cherokee Nation” (FY 2019 Rep.), available at https://www.cherokee.org/media/lufhr5rp/fy2018
-annual-report_final-online.pdf; https://www.cherokee.
org/media/gaahnswb/pafr-fy19-final-v-2.pdf.
7. Cherokee Nation is one of five tribes that
have been treated as a group for purposes of federal
legislation (Cherokee, Muscogee (Creek), Choctaw,
Chickasaw, and Seminole Nations, historically referred
to as the “Five Civilized Tribes” or “Five Tribes”).
8. Cherokee Nation was originally located in what
are now the states of Georgia, Alabama, Tennessee,
South Carolina, North Carolina, and Kentucky. Wilkins, Thurman, Cherokee Tragedy: The Ridge Family
and the Decimation of a People 22, 91, 209, 254 (rev.
2d ed. 1986).
9. The Indian Removal Act of 1830, Act of May
28, 1830, ch. 148, § 1, 4 Stat. 411, which implemented
the national removal policy, authorized the President
to divide public domain lands into defined “districts”
for tribes removing west of the Mississippi River.
10. The Indian Removal Act also provided that
the United States would “forever secure and guaranty”
such lands to the removed tribes, “and if they prefer
it . . . the United States will cause a patent . . . to be
made and executed to them for the same[.]” § 3, 4 Stat.
411.
11. The Cherokees exchanged lands in the Southeast for new lands in Indian Territory in the 1830s
under treaties with the United States.

App.15a
12. Removal of Cherokees was completed in 1838,
with many deaths occurring during the removal process. See The Western Cherokee Indians v. United
States, 27 Ct. at Cl. 1, 3, 1800 WL 1779 (1891); Rogin,
Michael Paul, Fathers & Children: Andrew Jackson
and the Subjugation of the American Indian 241 (1991).
13. After removal, the Five Tribes occupied almost
the entire area of what is now Oklahoma until after
the civil war, when their treaties required cessions of
lands in what is now western Oklahoma.
14. Since 1881, decades before Oklahoma statehood, states’ criminal jurisdiction has been limited to
offenses committed by non-Indians against non-Indians
in Indian country. United States v. McBratney, 104
U.S. 621, 624 (1881); see also Solem v. Bartlett, 465
U.S. 463, 465 n. 2 (1984) (“Within Indian country,
State jurisdiction is limited to crimes by non-Indians
against non-Indians . . . and victimless crimes by nonIndians.”).
15. In 1890, Congress authorized the establishment of Oklahoma Territory in the western portion of
Indian Territory, and a territorial government was
formed there. Act of May 2, 1890, ch. 182, §§ 1-28, 26
Stat. 81 (1890 Act).
16. “The lands in the east held by the Five
Civilized Tribes remained Indian Territory, subject
only to federal and tribal authority.” Indian Country,
U.S.A., 829 F.2d 967, 977(10th Cir. 1987); §§ 29-44,
26 Stat. 81.
17. “No territorial government was ever created
in the reduced Indian Territory, and it remained subject directly to tribal and federal governance.” Indian
Country, US.A., 829 F.2d at 974, citing Jefferson v.

App.16a
Fink, 247 U.S. 288, 290-91 (1918); Southern Surety
Co. v. Oklahoma, 241 U.S. 582, 584 (1916).
18. Criminal prosecutions in Indian Territory
were split between tribal and federal courts. McGirt,
140 S.Ct. 2452, 2476 (2020), citing the 1890 Act, § 30,
26 Stat. 81, 94; see also Talton v. Mayes, 163 U.S.
376, 381 (1896) (finding that Cherokee Nation had
exclusive jurisdiction over an 1892 Cherokee murder
in Cherokee Nation under its treaties and the 1890
Act).
19. In 1906, Congress authorized the joinder of
Oklahoma Territory and Indian Territory to form the
State of Oklahoma. Act of June 16, 1906, ch.3335, 34
Stat. 267, as amended by the Act of Mar. 4, 1907, ch.
2911, 34 Stat. 1286) (Enabling Act).
20. The Enabling Act required transfer to the
federal courts in Oklahoma of prosecutions of “all
crimes and offenses” committed within Indian Territory
“which, had they been committed within a State, would
have been cognizable in the Federal courts.” § 16, 34
Stat. 267, 276, as amended by § 1, 34 Stat. 1286.
21. The State of Oklahoma entered the Union in
1907. Proclamation, 35 Stat. 2160-61 (Nov. 16, 1907).
CONCLUSIONS OF LAW
Criminal Jurisdiction in Indian Country
1. Federal statutes define federal and state jurisdiction over crimes committed by or against Indians
in Indian country. Indian Country Criminal Jurisdictional Chart, available on United States Attorney
Western District of Oklahoma website at: https://www.
justice.gov/usao-wdolc/page/file/1300046/download).

App.17a
2. Oklahoma failed to assume criminal and civil
jurisdiction under Public Law 280, 25 U.S.C. § 1321,
before it was amended to require tribal consent, and has
thus never acquired jurisdiction over Indian country
through that law. Indian Country, US.A., 829 F.2d at
980 n.6; see Cravatt v. State, 1992 OK CR 6, 825 P.2d
277, 279 (Okla. Crim. App. 1992) (“The State of Oklahoma has never acted pursuant to Public Law 83-280,”
quoting State v. Klindt, 1989 OK CR 75, 782 P.2d 401,
403 (Okla. Crim. App. 1989). See also McGirt, 140 S.Ct.
at 2478 (“Oklahoma doesn’t claim to have complied
with the requirements to assume jurisdiction voluntarily over Creeks”).
3. Congress has not enacted any law conferring
criminal jurisdiction on Oklahoma over crimes committed by or against Indians in Indian country. See
McGirt, 140 S.Ct. at 2476-78 (rejecting the State’s
arguments that allotment-era statutes granted Oklahoma jurisdiction over all crimes in Indian country);
United States v. Ramsey, 271 U.S. 467, 469, 472 (1926)
(Federal court had jurisdiction over prosecution of a
non-Indian for the murder of an Osage Indian on
restricted Osage allotment in Oklahoma).
4. “When Oklahoma won statehood in 1907, the
Major Crimes Act, 18 U.S.C. § 1153 (MCA), applied
immediately according to its plain terms” and crimes
covered by the MCA “belonged in federal court from day
one, wherever they arose within the new state [of
Oklahoma].” McGirt, 140 S.Ct. at 2477. “Only the federal government, not the State, can prosecute Indians
for major crimes committed in Indian country.” Id. at
2478.

App.18a
5. The MCA, 18 U.S.C. § 1153(a), governs jurisdiction only as to Indian offenders and only as to certain
listed qualifying crimes:
(a) Any Indian who commits against the person
or property of another Indian or other person
any of the following offenses, namely, murder,
manslaughter, kidnapping, maiming, a felony
under chapter 109A, incest, a felony assault
under section 113, an assault against an
individual who has not attained the age of 16
years, felony child abuse or neglect, arson,
burglary, robbery, and a felony under section
661 of this title within the Indian country,
shall be subject to the same law and penalties as all other persons committing any of
the above offenses, within the exclusive
jurisdiction of the United States.
6. Under the MCA, federal courts have exclusive
jurisdiction, as to Oklahoma, over prosecutions for the
listed crimes committed by Indians—whether against
Indians or non-Indians—in Indian country. See McGirt,
140 S.Ct. at 2476-79 (Oklahoma had no jurisdiction
to prosecute a Seminole citizen for crimes committed
on fee lands within the Creek Reservation under the
MCA); see also Murphy v. Royal, 875 F.3d 896, 921
(10th Cir. 2017), aff’d, Sharp v. Murphy, 591 U.S.,
140 S.Ct. 2412 (2020) (Murphy) (murder of an Indian
by another Indian on the Creek Reservation is subject to exclusive federal jurisdiction under the MCA);
United States v. Sands, 968 F.2d 1058, 1061-62 (10th
Cir. 1992) cert. denied, 506 U.S. 1056 (1993) (“The State
of Oklahoma does not have jurisdiction over a criminal
offense committed by one Creek Indian against another
in Indian country.”)

App.19a
7. The State of Oklahoma does not have subjectmatter jurisdiction over the criminal offenses committed
by Dakota Shriver, who is citizen of the Cherokee
Nation, if such crime was committed in Indian country.
Definition of Indian Country
1. It is well-established that trust and restricted
allotments in Oklahoma constitute Indian Country as
defined by 18 U.S.C. § 1151(c) (“all Indian allotments,
the Indian titles to which have not been extinguished,
including rights-of-way running through the same”),
and that Oklahoma does not have jurisdiction over
crimes committed on such lands. Cravatt, 825 P.2d at
279, overruling Ex parte Nowabbi, 1936 OK CR 123,
61 P.2d 1139, 1154; State v. Klindt, 782 P.2d at 403
(no state jurisdiction over assault with dangerous
weapon by or against Indian on Cherokee trust
allotment).
2. The present case concerns the definition of
“Indian country” in 18 U.S.C. § 1151(a) (“all land within
the limits of any Indian reservation under the jurisdiction of the United States Government, notwithstanding the issuance of any patent, and, including rightsof-way running through the reservation.”)
3. Tribal lands held in trust by the United States
and unallotted tribal lands are classified as reservations for jurisdictional purposes. See United States v.
John, 437 U.S. 634, 649 (1978) (Mississippi Choctaw
tribal trust lands are reservation lands); Ross v. Neff,
905 F.2d at 1352 (Cherokee tribal trust land is Indian
country under 18 U.S.C. § 1151); Indian Country,
U.S.A., 829 F.2d at 976 (unallotted Creek lands are
reservation lands).

App.20a
4. “[W]hen Congress has once established a reservation, all tracts included within it remain a part of
the reservation until separated therefrom by Congress.”
United States v. Celestine, 215 U.S. 278, 285 (1909).
5. “The purchase of lands by non-Indians is not
inconsistent with reservation status. McGirt, 140 S.Ct.
at 2464 n.3, citing Seymour v. Superintendent of Wash.
State Penitentiary, 368 U.S. 351, 357-358 (1962).
6. “Once a block of land is set aside for an Indian
reservation and no matter what happens to the title
of individual plots within the area, the entire block
retains its reservation status until Congress explicitly
indicates otherwise.” McGirt, 140 S.Ct. at 2468, citing
Solem v. Bartlett, 465 U.S. at 470.
Cherokee Reservation Establishment
1. The Cherokee Nation’s treaties must be considered on their own terms, in determining reservation
status. McGirt, 140 S.Ct. at 2479.
2. As noted by the Supreme Court, in McGirt,
Creek treaties promised a “permanent home” that
would be “forever set apart,” and assured a right to
self-government on lands that would lie outside both
the legal jurisdiction and geographic boundaries of
any state. McGirt, 140 S.Ct. at 2461-62 (describing in
detail provisions in Treaty with the Creeks, arts. I,
XII, XIV, XV, Mar. 24, 1832, 7 Stat. 366-68; Treaty with
the Creeks, preamble, arts. III, IV, IX, Feb. 14, 1833,
7 Stat. 417, 419; Treaty with Creeks and Seminoles,
arts. IV, XV, Aug. 7, 1856, 11 Stat. 699, 700, 704; and
Treaty Between the United States and the Creek
Indians, arts. III and IX, June 14, 1866, 14 Stat. 785,
786, 788.

App.21a
3. “Under any definition, this was a [Creek] reservation.” McGirt, 140 S.Ct. at 2461.
4. The Cherokee treaties were negotiated and
finalized during the same period of time as the Creek
treaties, contained similar provisions that promised
a permanent home that would be forever set apart,
and assured a right to self-government on lands that
would lie outside both the legal jurisdiction and
geographic boundaries of any state.
5. The 1833 Cherokee treaty “solemnly pledged”
a “guarantee” of seven million acres to the Cherokees
on new lands in the West “forever.” Treaty with the
Western Cherokee, Preamble, Feb. 14, 1833, 7 Stat.
414.
6. The 1833 Cherokee treaty used precise geographic terms to describe the boundaries of the new
Cherokee lands, and provided that a patent would issue
as soon as reasonably practical. Art. 1, 7 Stat. 414.
7. The 1835 Cherokee treaty, Treaty with the
Cherokee, Dec. 29, 1835, 7 Stat. 478, was ratified two
years later “with a view to re-unite their people in
one body and to secure to them a permanent home
for themselves and their posterity,” in what became
known as Indian Territory, “without the territorial
limits of the state sovereignties,” and “where they
could establish and enjoy a government of their
choice, and perpetuate such a state of society as might
be consonant with their views, habits and condition.”
Holden v. Joy, 84 U.S. (17 Wall.) 211, 237-38 (1872)
(emphasis added).
8. Like Creek treaty promises, the United States’
treaty promises to Cherokee Nation “weren’t made
gratuitously.” McGirt, 140 S.Ct. at 2460.

App.22a
9. Under the 1835 treaty, Cherokee Nation
“cede[d], relinquish[ed], and convey[ed]” all its aboriginal lands east of the Mississippi River to the
United States. Arts. 1, 7 Stat. 478.
10. In return, the United States agreed to convey
to Cherokee Nation, by fee patent, seven million acres
in Indian Territory within the same boundaries as
described in the 1833 treaty, plus “a perpetual outlet
west.” Art. 2, 7 Stat. 478.
11. The 1835 Cherokee treaty described the
United States’ conveyance to the Cherokee Nation of
the new lands in Indian Territory as a cession; required
Cherokee removal to the new lands; covenanted that
none of the new lands would be “included within
the territorial limits or jurisdiction of any State or
Territory” without tribal consent; and secured “to the
Cherokee nation the right by their national councils
to make and carry into effect all such laws as they
may deem necessary for the government . . . within
their own country,” so long as consistent with the
Constitution and laws enacted by Congress regulating
trade with Indians. Arts. 1, 5, 8, 19, 7 Stat. 478.
12. After removal, on December 31, 1838, President Van Buren executed a fee patent to the Cherokee
Nation for the new lands in Indian Territory. Cherokee
Nation v. Hitchcock, 187 U.S. 294, 297 (1902).
13. The title was held by Cherokee Nation “for
the common use and equal benefit of all the members.”
Cherokee Nation v. Hitchcock, 187 U.S. at 307; see
also Cherokee Nation v. Journeycake, 155 U.S. 196,
207 (1894).
14. Fee title is not inherently incompatible with
reservation status, and establishment of a reservation

App.23a
does not require a “particular form of words.” McGirt,
140 S.Ct. at 2475, citing Maxey v. Wright, 54 S.W.
807, 810 (Indian Ten. 1900) and Minnesota v. Hitchcock,
185 U.S. 373, 390 (1902).
15. The 1846 Cherokee treaty required federal
issuance of a deed to the Nation for lands it occupied,
including the “purchased” 800,000-acre tract in Kansas
(known as the Neutral Lands”) and the “outlet west.”
Treaty with the Cherokee, Aug. 6, 1846, art. 1, 9 Stat.
871.
16. The 1866 treaty, which was negotiated after
the civil war and resulted in Cherokee cessions of lands
in Kansas and the Cherokee Outlet, required the
United States, at its own expense, to cause the
Cherokee boundaries to be marked “by permanent
and conspicuous monuments, by two commissioners,
one of whom shall be designated by the Cherokee
national council.” Treaty with the Cherokee, July 19,
1866, art. 21, 14 Stat. 799.
17. The 1866 Cherokee treaty “re-affirmed and
declared to be in full force” all previous treaty provisions
“not inconsistent with the provisions of the 1866 treaty,
and provided that nothing in the 1866 treaty “shall
be construed as an acknowledgment by the United
States, or as a relinquishment by Cherokee Nation
of any claims or demands under the guarantees of
former treaties,” except as expressly provided in the
1866 treaty. Art. 31, 14 Stat. 799 (emphasis added).
18. The “most authoritative evidence of [a tribe’s]
relationship to the land . . . lies in the treaties and
statutes that promised the land to the Tribe in the
first place.” McGirt, 140 S.Ct. at 2475-76.

App.24a
19. Like Creek treaties, the Cherokee treaties
that promised land in Indian Territory to the Cherokee
Nation established the tribe’s relationships with that
land and created a reservation.
Current Cherokee Nation Boundaries
1. The current boundaries of Cherokee Nation
are as established in Indian Territory in the 1833
and 1835 Cherokee treaties, diminished only by two
express cessions.
2. First, the 1866 treaty expressly ceded the
Nation’s patented lands in Kansas, consisting of
a two-and-one-half mile-wide tract known as the
Cherokee Strip and the 800,000-acre Neutral Lands,
to the United States. Art. 17, 14 Stat. 799. See Map,
Goins, Charles Robert, and Goble, Danney, “Historical
Atlas of Oklahoma” (4th Ed. 2006) at 61).
3. Second, the 1866 treaty authorized settlement
of other tribes in a portion of the Nation’s land west
of its current western boundary (within the area
known as the Cherokee Outlet); and required payment
for those lands, stating that the Cherokee Nation would
“retain the right of possession of and jurisdiction over
all of said country . . . until thus sold and occupied,
after which their jurisdiction and right of possession
to terminate forever as to each of said districts thus
sold and occupied.” Art. 16, 14 Stat. 799.
4. The Cherokee Outlet cession was finalized by
an 1891 agreement ratified by Congress in 1893 (1891
Agreement). Act of Mar. 3, 1893, ch. 209, § 10, 27 Stat.
612, 640-43.
5. The 1891 Agreement provided that Cherokee
Nation “shall cede and relinquish all its title, claim,

App.25a
and interest of every kind and character in and to
that part of the Indian Territory” encompassing a
strip of land bounded by Kansas on the North and
Creek Nation on the south, and located between the
ninety-sixth degree west longitude and the one
hundredth degree west longitude (i.e., the Cherokee
Outlet). See United States v. Cherokee Nation, 202 U.S.
101, 105-06 (1906). See Map, Goins, Charles Robert,
and Goble, Danney, “Historical Atlas of Oklahoma”
(4th Ed. 2006) at 61).
6. The 1893 statute that ratified the 1891 Agreement required payment of a sum certain to the Nation
and provided that, upon payment, the ceded lands
would “become and be taken to be, and treated as,
a part of the public domain,” except for such lands
allotted under the Agreement to certain described
Cherokees farming the lands. 27 Stat. 612, 640-43;
United States v. Cherokee Nation, 202 U.S. at 112.
7. Cherokee Nation did not cede or restore any
other portion of the Cherokee Reservation to the public
domain in the 1891 Agreement, and no other cession
has occurred since that time.
8. The original 1839 Cherokee Constitution established the boundaries as described in the 1833 treaty,
and the Constitution as amended in 1866 recognized
those same boundaries, “subject to such modification
as may be made necessary” by the 1866 treaty. 1839
Cherokee Constitution, art. I, § 1, and Nov. 26, 1866
amendment to art. I, § 1, reprinted in Volume I of
West’s Cherokee Nation Code Annotated (1993 ed.).
9. Cherokee Nation’s most recent Constitution, a
1999 revision of its 1975 Constitution, was ratified
by Cherokee citizens in 2003, and provides: “The

App.26a
boundaries of the Cherokee Nation territory shall be
those described by the patents of 1838 and 1846
diminished only by the Treaty of July 19, 1866, and
the Act of Mar. 3, 1893.” 1999 Cherokee Constitution, art. 2.
Statutory Text Governing
Reservation Disestablishment Inquiry
1. Courts do not lightly infer that Congress has
exercised its power to disestablish a reservation.
McGirt, 140 S.Ct. at 2462, citing Solem, 465 U.S. at
470. There is a “presumption” against disestablishment.
Murphy v. Royal, 875 F. 3d at 918, citing Solem, 465
U.S. at 481.
2. The only “step” proper for a court of law to
consider in a disestablishment analysis is “to ascertain
and follow the original meaning of the law” before it.
McGirt, 140 S.Ct. at 2468.
3. Once a reservation is established, it retains that
status “until Congress explicitly indicates otherwise.”
McGirt, 140 S.Ct. at 2468, citing Solem, 465 U.S.at
470.
4. Congress must clearly express its intent to
disestablish, commonly by “‘[e]xplicit reference to cession or other language evidencing the present and
total surrender of all tribal interests.’ McGirt, 140 S.Ct.
at 2463, citing Nebraska v. Parker, 577 U.S. 481, ___,
136 S.Ct. 1072, 1079 (2016).
5. A statute disestablishing a reservation may
provide an “[e]xplicit reference to cession” or an
“unconditional commitment . . . to compensate the
Indian tribe for its opened land.” McGirt, 140 S.Ct. at
2462, citing Solem, 465 U.S. at 470.

App.27a
6. A statute disestablishing a reservation may
direct that tribal lands be “‘restored to the public
domain,’” McGirt, 140 S.Ct. at 2462, citing Hagen v.
Utah, 510 U.S 399, 412 (1994), or state that a reservation is ‘discontinued,’” “‘abolished,’” or “‘vacated.’”
McGirt, 140 S.Ct. at 2463, citing Mattz v. Arnett, 412
U.S. 481, 504, n. 22 (1973); see also DeCoteau v. District
County Court for Tenth Judicial Dist., 420 U.S. 425,
439-440 n.22 (1975).
7. In 1893, Congress established the Commission
to the Five Civilized Tribes (popularly known as the
Dawes Commission) to negotiate agreements with the
Five Tribes for “the extinguishment of the national or
tribal title to any lands” in Indian Territory “either
by cession,” by allotment, or by such other method as
agreed upon. § 16, 27 Stat. 612, 645-646.
8. According to an 1894 Dawes Commission report,
the Five Tribes “would not, under any circumstances,
agree to cede any portion of their lands.” Ann. Rept. of
the Comm. Five Civ. Tribes of 1894, 1895, and 1896
(1897) at 14. See McGirt, 140 S.Ct. at 2463.
9. This refusal to cede tribal lands is also reflected
in the Dawes Commission’s 1900 annual report: “Had
it been possible to secure from the Five Tribes a
cession to the United States of the entire territory at
a given price, . . . the duties of the commission would
have been immeasurably simplified . . . When an understanding is had, however, of the great difficulties which
have been experienced in inducing the tribes to accept
allotment in severalty . . . it will be seen how impossible
it would have been to have adopted a more radical
scheme of tribal extinguishment, no matter how simple
its evolutions.” Seventh Ann. Rept. of the Comm.
Five Civ. Tribes (1900) at 9. (emphasis added).

App.28a
10. Where Congress contemplates, but fails to
enact, legislation containing express disestablishment
language, the statute represents “a clear retreat
from previous congressional attempts to vacate the
. . .Reservation in express terms[.]” DeCoteau, 420 U.S.
at 448.
11. The “‘present and total surrender of all tribal
interests’ in the affected lands” required for disestablishment is missing from the Creek allotment agreement, Act of Mar. 1, 1901, ch. 676, 31 Stat. 861 (Creek
Agreement). McGirt, 140 S.Ct. at 2464.
12. The Cherokee Nation ratified the Cherokee
allotment agreement in 1902. Act of July 1, 1902, ch.
1375, 32 Stat. 716 (Cherokee Agreement).
13. Like the Creek Agreement, the “‘present and
total surrender of all tribal interests’ in the affected
lands” required for disestablishment is missing in
the Cherokee Agreement.
14. The central purpose of the 1902 Cherokee
Agreement, like that of the Creek Agreement, was to
facilitate transfer of title from the Nation of “allottable
lands” (defined in § 5, 32 Stat. 716, as “all the lands
of the Cherokee tribe” not reserved from allotment)
to tribal citizens individually. Ninth Ann. Rept. of the
Comm. Five Civ. Tribes (1902) at 11.
15. Lands reserved from allotment included
schools, colleges, and town sites “in Cherokee Nation,”
cemeteries, church grounds, an orphan home, the
Nation’s capital grounds, its national jail site, and its
newspaper office site. §§ 24, 49, 32 Stat. at 719-20, 724;
see also Creek Agreement, § 24, 31 Stat. at 868-869.

App.29a
16. With exceptions for certain pre-existing town
sites and other special matters, the Cherokee Agreement established procedures for conveying allotments
to individual citizens who could not sell, transfer, or
otherwise encumber their allotments for a number
of years (5 years for any portion, 21 years for the
designated “homestead” portion). §§ 9-17, 32 Stat. at
717; see also McGirt, 140 S.Ct. at 2463, citing Creek
Agreement, §§ 3, 7, 31 Stat. 861, 862-864.
17. The restricted status of the allotments reflects
the Cherokee Nation’s understanding that allotments
would not be acquired by non-Indians, would remain
in the ownership of tribal citizens, and would be subject
to federal protection.
18. Cherokee citizens were given deeds that
conveyed to them “all the right, title, and interest” of
the Cherokee Nation. § 58, 32 Stat. at 725; see also
McGirt, 140 S.Ct. at 2463, citing Creek Agreement,
§ 23, 31 Stat. at 867-868.
19. As of 1910, 98.3% of the lands of Cherokee
Nation (4,348,766 acres out of 4,420,068 acres) had
been allotted to tribal citizens; an additional 21,000
acres were reserved for town sites, schools, churches,
and other uses; and only 50,301 acres scattered
throughout the nation remained unallotted (approximately one percent of Cherokee Nation lands). Ann.
Rept. of the Comm. Five Civ. Tribes (1910) at 169, 176.
20. Allotment alone does not disestablish a
reservation. McGirt, 140 S.Ct. at 2464, citing Mattz, 412
U.S. at 496-97 (explaining that Congress’s expressed
policy during the allotment era “was to continue the
reservation system,” and that allotment can be “completely consistent with continued reservation status”);

App.30a
and Seymour, 364 U.S. at 356-58 (allotment act “did
no more than open the way for non-Indian settlers to
own land on the reservation”).
21. Allotment-era statutes “did not abrogate the
federal government’s authority and responsibility,
nor allow jurisdiction by the State of Oklahoma” over
those [Creek] allotments). United States v. Sands,
968 F.2d at 1061-62.
22. The Act of June 28, 1898, ch. 517, 30 Stat.
495 (Curtis Act) recognized continuation of Cherokee
boundaries, by referencing a “permanent settlement
in the Cherokee Nation” and “lands in the Cherokee
Nation.” §§ 21, 25, 30 Stat. at 502, 504.
23. Statutory provisions related to tribal selfgovernance during the allotment era were “serious
blows” to the promised right to Creek self-governance,
but did not prove disestablishment. McGirt, 140 S.Ct.
at 2466.
24. “[P]erhaps in an effort to pressure the Tribe
to the negotiating table,” the Curtis Act included
provisions for termination of tribal courts. McGirt,
140 S.Ct. at 2465, citing § 28, 30 Stat. 495, 504-505.
25. The 1901 Creek Agreement expressly recognized the continued applicability of the Curtis Act’s
abolishment of Creek courts, by providing that nothing
in that agreement “shall be construed to revive or
reestablish the Creek courts which have been abolished” by former laws. § 47, 31 Stat. at 873.
26. The Curtis Act’s abolishment of Creek courts
did not result in Creek reservation disestablishment.
McGirt, 140 S.Ct. at 2465-66.

App.31a
27. Unlike the Creek Agreement, the Cherokee
Agreement did not describe tribal courts as “abolished”
by the Curtis Act or prohibit revival of tribal courts.
28. The Five Tribes Commission’s early efforts to
conclude an agreement with Cherokee Nation were
futile, “owing to the disinclination of the Cherokee
commissioners to accede to such propositions as the
Government had to offer.” Sixth Ann. Rept. of the
Comm. Five Civ. Tribes (1899 at 9-10).
29. The final ratified Cherokee Agreement omitted provisions in earlier unratified versions that
consented to extinguishment of Cherokee courts, Sixth
Ann. Rept. of the Comm. Five Civ. Tribes (1899),
Appendix No. 2, § 71 at 49, 57, or that prohibited
revival of Cherokee courts, Seventh Ann. Rept. of the
Comm. Five Civ. Tribes (1900) at 13, Appendix No. 1,
§ 80 at 37,45, Act of Mar. 1, 1901, ch. 675, pmbl. and
§ 72, 31 Stat. 848, 859 (unratified by Cherokee voters).
30. Section 73 of the Cherokee Agreement, 32
Stat. at 727, provided that “no Act of Congress or treaty
provision inconsistent with this agreement shall be
in force in said Nation” except sections 14 and 27 of
the Curtis Act, concerning towns in Indian Territory
and an Indian inspector, “which shall continue in
force as if this agreement had not been made.”
31. Treaty provisions not inconsistent with the
Cherokee Agreement included the 1866 Treaty’s provision that Cherokee courts would “retain exclusive
jurisdiction in all civil and criminal cases arising
within their country in which members of the nation,
by nativity or adoption, shall be the only parties, or
where the cause of action shall arise in the Cherokee

App.32a
Nation, except as otherwise provided in this treaty.”
Art. 13, 14 Stat. 799.
32. Another “serious blow” to Creek governmental
authority was a provision in the Creek Agreement
that conditioned the validity of Creek ordinances
“affecting the lands of the Tribe, or of individuals
after allotments, or the moneys or other property of
the Tribe, or of the citizens” thereof, on approval by
the President. McGirt, 140 S.Ct. at 2465, citing § 42,
31 Stat. at 872.
33. This provision did not result in reservation
disestablishment, in light of the absence of any of the
hallmarks for disestablishment in the Creek Agreement, such as cession and compensation. See McGirt,
140 S.Ct. at 2465 and n.5.
34. The Cherokee Agreement does not contain a
similar provision limiting the Cherokee Nation’s legislative authority by requiring Presidential approval of
certain ordinances
35. Like the Creek Agreement, § 46, 31 Stat. 872,
the Cherokee Agreement provided that tribal government would not continue beyond March 4, 1906. § 63,
32 Stat. at 725.
36. Two days before the March 4 deadline, Congress approved a Joint Resolution continuing Five
Tribes governments “in full force and effect” until
distribution of tribal property or proceeds thereof to
tribal citizens. Act of Mar. 2, 1906, 34 Stat. 822.
37. The following month, Congress enacted the
Five Tribes Act, which expressly continued the governments of all of the Five Tribes “in full force and effect
for all purposes authorized by law, until otherwise

App.33a
provided by law.” McGirt, 140 S.Ct. at 2466, citing Act
of Apr. 26, 1906, ch. 1876, § 28, 34 Stat. 137, 148.
38. The Five Tribes Act authorized the President
to remove and replace the Five Tribes’ principal chiefs,
instructed the Secretary of the Interior to assume
control of tribal schools, and limited the number of
tribal council meetings to no more than 30 days
annually. McGirt, 140 S.Ct. at 2466, citing §§ 6, 10,
28, 34 Stat. 139-140, 148.
39. The Five Tribes Act also addressed the handling of the Five Tribes’ funds, land, and legal liabilities
in the event of dissolution. McGirt, 140 S.Ct. at 2466,
citing §§ 11, 27, 34 Stat. at 141, 148.
40. The congressional intrusions on Creek preexisting treaty rights “fell short of eliminating all tribal
interests in the land.” McGirt, 140 S.Ct. at 2466.
41. Congressional intrusions on Cherokee treaty
rights, which were less severe than intrusions on
Creek treaty rights, likewise did not eliminate the
Cherokee Nation’s tribal interest in its lands.
42. Congress left the Five Tribes “with significant
sovereign functions over the lands in question.” McGirt,
140 S.Ct. at 2466.
43. For example, Creek Nation retained the power
to collect taxes; to operate schools; and to legislate
through tribal ordinances (subject to Presidential
approval of certain ordinances as required by the Creek
Agreement, § 42, 31 Stat. 872). McGirt, 140 S.Ct. at
2466, citing Creek Agreement, §§ 39, 40, 42, 31 Stat.
at 871-872.
44. The Cherokee Agreement similarly required
that the Secretary operate schools under rules “in

App.34a
accordance with Cherokee laws;” required that funds
for operating tribal schools be appropriated by the
Cherokee National Council; required the Secretary’s
collection of a grazing tax for the benefit of Cherokee
Nation; and confirmed treaty rights. §§ 3, 32, 34, 72,
32 Stat. at 721, 727.
45. As with the Creek Agreement, there is no
hallmark language in the Cherokee agreement of
cession or compensation or other text that disestablished the reservation.
46. There is no ambiguous language in any of the
relevant allotment-era statutes applicable to Cherokee
Nation, including its allotment agreement, “that could
plausibly be read as an Act of disestablishment.” See
McGirt, 140 S.Ct. at 2468 (reaching same conclusion
as to Creek Nation).
Events Surrounding
Enactment of Cherokee Allotment Legislation
and Later Demographic Evidence
1. A court may not favor contemporaneous or
later practices instead of the laws Congress passed.
McGirt, 140 S.Ct. at 2468.
2. “There is no need to consult extratextual
sources when the meaning of a statute’s terms is clear.
Nor may extratextual sources overcome those terms.
The only role such materials can properly play is to
help ‘clear up . . . not create’ ambiguity about a statute’s
original meaning.” McGirt, 140 S.Ct. at 2469.
3. Because there is no ambiguous language in
any of the relevant allotment-era statutes applicable
to Cherokee Nation “that could plausibly be read as
an Act of disestablishment,” McGirt, 140 S.Ct. at 2468,

App.35a
it is unnecessary to consider events surrounding
enactment of Cherokee allotment legislation and later
demographic evidence as second and third steps for
purposes of a reservation disestablishment inquiry.
McGirt, 140 S.Ct. at 2468.
4. Even when these steps are considered, “the
carefully selected history” Oklahoma and the dissent
recited in McGirt supplies the Court “with little help
in discerning the law’s meaning and much potential
for mischief.” McGirt, 140 S.Ct. at 2474.
5. The consideration of the events surrounding
enactment of Cherokee allotment legislation and later
demographic evidence is unnecessary and contributes
nothing to the clear meaning of the statutes at issue.
6. However, consideration of the events surrounding the enactment of Cherokee allotment legislation
confirms the clear meaning of the statutes.
7. Federal statutes enacted near the beginning of
statehood recognized the existence of the Cherokee
Reservation as a distinct geographic area. See Enabling
Act, § 6, 34 Stat. 277 (the third district for the House
of Representatives must “(with the exception of that
part of recording district numbered twelve, which is
in the Cherokee and Creek nations) comprise all the
territory now constituting the Cherokee, Creek, and
Seminole nations and the Indian reservations lying
northeast of the Cherokee Nation, within said State”);
Act of June 21, 1906, ch. 3504, 34 Stat. 325, 342-43
(drawing recording districts in the Indian Territory,
including district 27, with boundaries along the northern and western “boundary line[s] of the Cherokee
Nation,” and district 28, described as “lying within the
boundaries of the Cherokee Nation”); Act of June 30,

App.36a
1913, ch. 4, § 18, 38 Stat. 77, 95 (“common schools in the
Cherokee, Creek, Choctaw, Chickasaw, and Seminole
Nations”); Act of May 25, 1918, ch. 86, 40 Stat. 561, 581
(“common schools in the Cherokee, Creek, Choctaw,
Chickasaw, and Seminole Nations”).
8. Demographic evidence, including the “speedy
and persistent movement of white settlers” onto Five
Tribes land throughout the late nineteenth and early
twentieth centuries, is not helpful in discerning statutory meaning. McGirt, 140 S.Ct. at 2473.
9. Historical statements by tribal officials and
others supporting an idea that “everyone” in the
late nineteenth and twentieth centuries believed
the reservation system and Creek Nation would be
disbanded, without reference to any ambiguous statutory direction, were merely prophesies that were not
self-fulfilling. McGirt, 140 S.Ct. at 2472.
10. As was the case for the Creek Nation, “Congress never withdrew its recognition” of the Cherokee
government, and “none of its [later] adjustments would
have made any sense if Congress thought it had
already completed that job.” McGirt, 140 S.Ct. at 2466.
11. Congress shifted its national Indian policy
from assimilation to tribal self-governance in the early
twentieth century. See McGirt, 140 S.Ct. at 2467.
12. The 1934 Indian Reorganization Act (IRA)
officially ended the allotment era for all tribes. Act of
June 18, 1934, ch. 576, 48 Stat. 984 (codified at 25
U.S.C. §§ 5101, et seq.)
13. The IRA excluded Oklahoma tribes from
applicability of five IRA sections, 25 U.S.C. § 5118, but

App.37a
all other IRA sections applied to Oklahoma tribes,
including provisions ending allotment.
14. The 1936 OIWA included a section acknowledging tribal authority to adopt constitutions and
corporate charters, and repealed all acts or parts of
acts inconsistent with the OIWA. 25 U.S.C. §§ 5203,
5209.
15. Oklahoma’s long historical practice of asserting jurisdiction over Indians in state court, even for
serious crimes on reservations, is “a meaningless
guide for determining what counted as Indian country.”
McGirt, 140 S.Ct. at 2471.
16. The Five Tribes spent the better part of the
twentieth century battling the consequences of the
“bureaucratic imperialism” of the Bureau of Indian
Affairs (BIA), which promoted the erroneous belief
that the Five Tribes possessed only limited governmental authority. Harjo v. Kleppe, 420 F. Supp. 1110,
1130 (D.D.C. 1976), affd sub nom. Harjo v. Andrus,
581 F.2d 949 (D.C. Cir. 1978) (finding that the evidence “clearly reveals a pattern of action on the part
of the BIA “designed to prevent any tribal resistance
to the Department’s methods of administering those
Indian affairs delegated to it by Congress,” as manifested in “deliberate attempts to frustrate, debilitate,
and generally prevent from functioning the tribal
governments expressly preserved by § 28 of the [Five
Tribes] Act.”).
17. The BIA’s treatment of the Five Tribes, which
impeded the Tribes’ ability to fully function as governments for decades, has limited interpretive value
and cannot overcome lack of statutory text demon-

App.38a
strating disestablishment. McGirt, 140 S.Ct. at 2469,
n. 8, citing Parker, 136 S.Ct. at 1082.
18. Oklahoma’s fears concerning challenges to
past convictions based on a finding of Creek reservation
status cannot force the Court “to ignore a statutory
promise when no precedent stands before us at all.”
McGirt, 140 S.Ct. at 2480.
19. Cherokee Nation’s government, like those of
other tribes, was strengthened by the Indian SelfDetermination and Education Assistance Act (ISDEAA)
of 1975. Act of Jan. 4, 1975, Pub. L. No. 93-638, 88
Stat. 2203 (codified at 25 U.S.C. §§ 5301, et seq.).
CONCLUSION
The State has argued the burden of proof regarding
whether Congress specifically erased the boundaries
or disestablished the reservation rests solely with
Defendant/Petitioner. The State also made clear that
the State takes no position as to the facts underlying
the existence, now or historically, of the alleged
Cherokee Nation Reservation. No evidence or argument
was presented by the State specifically regarding disestablishment or boundary erasure of the Cherokee
Reservation. The Order Remanding for Evidentiary
Hearing states, “Upon Petitioner’s presentation of
prima facie evidence as to the Defendant/Petitioner’s
legal status as an Indian and as to the location of the
crime in Indian Country, the burden shifts to the
State to prove it has subject matter jurisdiction.”
Order Remanding for Evidentiary Hearing at 3.
On this point, McGirt provides that once a reservation is established, it retains that status “until
Congress explicitly indicates otherwise.” McGirt, 140

App.39a
S.Ct. at 2468. Reading the order of remand together
with McGirt, regardless of where the burden of production is placed, no evidence was presented to this
Court to establish Congress explicitly erased or disestablished the boundaries of the Cherokee Nation or
that the State of Oklahoma has jurisdiction in this
matter. As a result, the Court finds Dakota Shriver
is an Indian and that the crime occurred in Indian
Country.
IT IS SO ORDERED this 12 day of November,
2020.
/s/ Kassie N. McCoy
Judge of the District Court

App.40a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 14, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DAKOTA JAMES ALLEYN SHRIVER,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
No. F-2017-1279
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Scott ROWLAND, Judge,
Robert L. HUDSON, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Appellant Dakota James Alleyn Shriver was tried
by jury and convicted of Second Degree Murder (21
O.S.2011 § 701.8) (Count I); Accessory After the Fact
(21 O.S.2011, § 173) (Counts II and III); and misdemeanor Obstructing an Officer (21 O.S.2011, § 540)
(Count IV), in the District Court of Rogers County,

App.41a
Case No. CF-2015-395. In accordance with the jury’s
recommendation the Honorable Dwayne Steidley, District Judge, sentenced Appellant to twenty-five (25)
years imprisonment in Count I, two (2) years imprisonment in Count II, one year imprisonment in Count
III, and one year in the county jail in Count IV. All
sentences were ordered to be served concurrently.
Appellant must serve 85% of his sentence in Count I
before becoming eligible for parole consideration.
Appellant appeals from this conviction and sentence.
In Proposition I, Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that he is a citizen of the Cherokee Nation and the
crime occurred within the boundaries of the Cherokee
Nation.
Pursuant to the recent decision of McGirt v.
Oklahoma, No. 189526 (U.S. July 9, 2020) Appellant’s
claim raises two separate questions: (a) his Indian
status and (b) whether the crime occurred in Indian
Country. These issues require fact-finding. We therefore
REMAND this case to the District Court of Rogers
County, for an evidentiary hearing to be held within
sixty (60) days from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to the Appellant’s legal
status as an Indian and as to the location of the
crime in Indian Country, the burden shifts to the
State to prove it has subject matter jurisdiction.

App.42a
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the following issues.
First, the Appellant’s status as an Indian. The
District Court must determine whether (1) Appellant
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.1
Second, whether the crime occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Cherokee
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the reservation. In making this determination the District Court
should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir.
2001).

App.43a
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions
of law and supplemental briefing shall occur as set
forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Rogers County:
Appellant’s Brief in Chief filed July 18, 2018; Appellant’s reply brief filed November 28, 2018; and
Appellee’s Response Brief, filed November 15, 2018.

App.44a
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 14th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge

ATTEST:
/s/ John D. Hadden
Clerk

